WAIVER

SUPREME COURT OF THE UNITED STATES

No. (20-1637

Janice Dickinson Ryan Seacrest Productions, Inc., et al.
(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© I am filing this waiver on behalf of all respondents.

oO I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:

Iam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

lam not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

Signature: =

Date: 6/1/21

(Type or print) Name Wook Hwang

© mw. O Ms. O Mrs. O Miss
Firm Loeb & Loeb LLP
Address 345 Park Avenue
City & State |New York, New York Zip 10154
Phone 212-407-4035 Email whwang@loeb.com

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Edward M. Anderson of Anderson Yeh PC

ce: Regina Yeh of Anderson Yeh PC
